No. ______
In the

Supreme Court of the United States
__________________

STEPHANE J. WANTOU SIANTOU,
Petitioner,
v.
CVS RX SERVICES, INC.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
Fourth Circuit Court of Appeals

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
robertsirianni@brownstonelaw.com
(o) 407-388-1900
(f) 407-622-1511
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Can a District Court judge invite the parties counsel
to a bench conference for the specific goal of preventing
the plaintiff from listening to the discussion, then in
the private conference secure the counsels agreements
to dismiss the impaneled jury and postpone the next
phase of the trial, without infringing on the plaintiff
5th Amendment right to due process and 7th
Amendment right to a jury trial?
Can the 4th Circuit hold that insubordination is
dispositive of a retaliation case when other Circuit
Courts have ruled otherwise, notably the 1st and the
7th Circuits, without providing an explanation?
Can a District Court grant a defendant’s Motion for
Judgment as a Matter of Law at trial, under Rule 50(a)
by weighing evidence, when the plaintiff case and
testimony have not been impeached, without reviewing
the evidence and without explaining what evidence its
decision rests on?
Where a plaintiff makes a prima facie case and
presents evidence of mendacity and dishonesty in the
explanation given to terminate him, can the employer
be granted summary judgment in a retaliation case?
In deciding on summary judgment, whether the
District Court can adopt the defendant version of the
facts when it is contradicted in the record.

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Stephane J. Wantou Siantou.
CVS Rx Services, Inc.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
Stephane J. Wantou Siantou has no parent
corporations and no publicly held company that owns
10% or more of any entity.
LIST OF PROCEEDINGS
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND AT GREENBELT
8:17-cv-00543-PWG
STEPHANE J. WANTOU SIANTOU v. CVS RX
SERVICES, INC.
Order dated 12/7/2018
Defendant’s Motion for Summary Judgment
GRANTED.
Siantou v. CVS Rx Servs., No. 8:17-cv-00543-PWG,
2018 U.S. Dist. LEXIS 208289 (D. Md. Dec. 7, 2018).
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND AT GREENBELT
PWG-17-0543
IN RE SIANTOU v. CVS RX SERVS.
Judgment dated 11/5/2019
Petitioner’s Renewed Motion for Judgment as a Matter
of Law, Post Trial Motion for Judgment as a Matter of

iii
Law as to Punitive Damages, and two Motions for
Reconsideration DENIED.
In re Siantou v. CVX Rx Servs., No. PWG-17-0543,
2019 U.S. Dist. LEXIS 195820 (D. Md. Nov. 5, 2019).
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND AT GREENBELT
Civil Case No. 8:17-cv-543-PWG
STEPHANE J. WANTOU SIANTOU v. CVS RX
SERVICES, INC.
Order dated 1/14/2020
Petitioner’s Renewed Motion for Attorneys’ Fees
GRANTED.
Wantou Siantou v. CVS Rx Servs., No. 8:17-cv-543PWG, 2020 U.S. Dist. LEXIS 6091 (D. Md. Jan. 14,
2020).
FOURTH CIRCUIT COURT OF APPEALS
No. 19-2262, No. 19-2313
STEPHANE J. WANTOU SIANTOU v. CVS RX
SERVICES, INC.
Judgment dated 9/24/2020
District Court’s Order AFFIRMED.
Wantou Siantou v. CVS Rx Servs., 822 F. App’x 204
(4th Cir. 2020).
FOURTH CIRCUIT COURT OF APPEALS
No. 19-2262, No. 19-2313
STEPHANE J. WANTOU SIANTOU v. CVS RX
SERVICES, INC.
Judgment dated 1/20/2021
Petitioner’s motion to exceed length limitations
AFFIRMED, Petitioner’s request for rehearing and
rehearing en banc DENIED.

iv
Siantou v. CVS Rx Servs., Nos. 19-2262 (L), 19-2313,
2021 U.S. App. LEXIS 1592 (4th Cir. Jan. 20, 2021).

v
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT . . . 2
STATUTORY PROVISIONS INVOLVED . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 8
A. Bringing the Claims to Federal Court. . . . 8
B. Concise Statement of Facts Pertinent to
the Questions Presented . . . . . . . . . . . . . . 9
C. Procedural History . . . . . . . . . . . . . . . . . . 12
REASONS TO GRANT THIS PETITION. . . . . . . . 14
I.

The United States District Court for the
District of Maryland Erred When It
Dismissed the Impaneled Jury and Ordered
a Separate Trial on Punitive Damages
Without Requiring the Knowledge and
Consent of the Plaintiff . . . . . . . . . . . . . . . . . 14

vi
A. The District Court Erred When It
Dismissed the Jury in Wantou’s Trial
Without Providing Him an Opportunity to
Be Heard. . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. The District Court Erred When It Allowed
Wantou’s Attorney to Consent to What
Was Effectively a Postponement Without
Receiving the Knowledge and Consent of
His Client.. . . . . . . . . . . . . . . . . . . . . . . . . 17
II.

The Fourth Circuit Court of Appeals Erred in
Affirming the Order of the District Court
When They Held That The District Court of
Maryland Did Not Commit Reversible Error
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

III.

The Fourth Circuit Court of Appeals Erred
when it Affirmed the United States District
Court for the District of Maryland’s Decision
Granting the Rule 56 Standard for Summary
Judgment . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
A. The District Court improperly applied the
burden shifting framework found in
Federal Rule of Civil Procedure 56 . . . . . 21
B. Genuine issues of material fact remained
unsettled at the time of the District
Court’s decision to grant CVS’ motion for
summary judgment. . . . . . . . . . . . . . . . . . 22

vii
C. The District Court Summary Judgment
Decision on the Petitioner’s Retaliation
Claim Related to His Termination is in
Conflict With Supreme Court Precedent
Set in Reeves vs. Sanderson, Other
Supreme Court Cases and Other Fourth
Circuit Precedents.. . . . . . . . . . . . . . . . . . 27
D. The Decision by the District Court and
the 4th Circuit that Wantou’s Alleged
Insubordination In the Face of Prior
Animus Is Dispositive of Retaliation
Creates a Circuit Split that Must Be
Resolved By The Supreme Court. . . . . . . 32
IV.

The Fourth Circuit Court of Appeals Erred
when it Affirmed the United States District
Court for the District of Maryland’s Decision
Granting CVS’s Rule50 Motion on Maryland
Punitive Damages During the Trial . . . . . . . 34

V.

The Fourth Circuit Erred When It Upheld
the District Court’s Decision Finding that the
District Court’s Dismissal of the Impaneled
Jury and the Trial of the Punitive Damages
Issues Under a Different Jury Did Not
Infringe on His Seventh Amendment Right to
a Jury Trial . . . . . . . . . . . . . . . . . . . . . . . . . . 39

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(September 24, 2020) . . . . . . . . . . . . . 1a

viii
Appendix B Report & Recommendations in the
United States District Court for the
District of Maryland, Southern Division
(January 14, 2020) . . . . . . . . . . . . . . . 4a
Appendix C Letter Order in the United States
District Court District of Maryland
(November 5, 2019). . . . . . . . . . . . . . 33a
Appendix D Order of Judgment in the United
States District Court for the District of
Maryland, Southern Division
(July 26, 2019) . . . . . . . . . . . . . . . . . 43a
Appendix E Memorandum Opinion in the United
States District Court for the District of
Maryland, Southern Division
(December 7, 2018) . . . . . . . . . . . . . . 45a
Appendix F Order in the United States District
Court for the District of Maryland,
Southern Division
(December 7, 2018) . . . . . . . . . . . . . . 81a
Appendix G Order in the United States Court of
Appeals for the Fourth Circuit
(January 20, 2021) . . . . . . . . . . . . . . 83a
Appendix H Transcript of Jury Trial Proceedings
in the United States District Court for
the District of Maryland
(February 28, 2019) . . . . . . . . . . . . . 85a

ix
TABLE OF AUTHORITIES
Cases
Aikens v. Ingram,
652 F.3d 496 (4th Cir. 2011). . . . . . . . . . . . . . . . 20
Anderson v. Air West, Inc.,
542 F.2d 522 (9th Cir. 1976). . . . . . . . . . . . . . . . 19
Anderson v. Liberty Lobby Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . 22, 25, 35, 36
Carlisle v. County of Nassau,
64 App. Div.2d 15, 408 N.Y.S.2d 114 (1978) . . . 16
Castano v. Am. Tobacco Co.,
84 F.3d 734 (5th Cir. 1996). . . . . . . . . . . . . . . . . 40
Dennis v. Baltimore Transit Co.,
189 Md. 610, 56 A.2d 813 (1948) . . . . . . . . . . . . 37
Duke v. Uniroyal Inc.,
928 F.2d 1413 (4th Cir. 1991). . . . . . . . . . . . . . . 36
Finley v. Parvin/Dohrmann Company, Inc.,
520 F.2d 386 (2d Cir. 1975) . . . . . . . . . . . . . . . . 19
Grable & Sons Metal Products, Inc. v. Darue
Eng'g & Mfg, 545 U.S. 308 (2005) . . . . . . . . . . . . 2
Gray v. Spillman,
925 F.3d 90 (4th Cir. 1991). . . . . . . . . . . . . . . . . 35
Harris v. Pittman,
668 F. App'x 486 (4th Cir. 2016) . . . . . . . . . . . . 36
Helminski v. Ayerst Lab., a Div. of A.H.P.C,
766 F.2d 208 (6th Cir. 1985). . . . . . . . . . . . . . . . 16

x
In re Circuit City Stores, Inc.,
No. 08-35653, 2009 Bankr. LEXIS 4011
(Bankr. E.D. Va. Dec. 3, 2009) . . . . . . . . . . . 14, 16
In re Josephson,
218 F.2d 174 (1 Cir. 1954) . . . . . . . . . . . . . . . . . 19
In re Siantou v. CVX Rx Servs.,
No. PWG-17-0543, 2019 U.S. Dist. LEXIS
195820 (D. Md. Nov. 5, 2019) . . . . . . . . . . . . . iii, 1
Jacobs v. N.C. Admin. Office of the Courts,
780 F.3d 562 (4th Cir. 2015). . . . . . . . . . . . . 35, 36
Johnson v. Hugo’s Skateway,
949 F.2d 1338 (4th Cir. 1991). . . . . . . . . . . . . . . 20
Kelley v. Corr. Med. Servs., Inc.,
707 F.3d 108 (1st. Cir. 2013) . . . . . . . . . . . . . . . 32
Lee v. Russell County Bd. Of Educ.,
684 F.2d 769 (11th Cir. 1982). . . . . . . . . . . . . . . 27
Lytle v. Household Mfg., Inc.,
494 U.S. 545 (1990). . . . . . . . . . . . . . . . . . . . 25, 35
Matasushita v. Elec. Industrial Co. v. Zenith
Radio Corp., 475 U.S. 574 (1986) . . . . . . . . . 25, 35
Mathews v. Eldridge,
424 U.S. 319, 96 S. Ct. 893,
47 L. Ed. 2d 18 (1976) . . . . . . . . . . . . . . . . . . . . 14
Matter of Rhone-Poulenc Rorer Inc.,
51 F.3d 1293 (7th Cir. 1995). . . . . . . . . . . . . . . . 39
Mattison v. Dallas Carrier Corp.,
947 F. 2d 95 (4th Cir. 1991) . . . . . . . . . . . . . . . . 39

xi
Miller v. American Bonding Co.,
257 U.S. 304 (1921). . . . . . . . . . . . . . . . . . . . 40, 41
Miller v. Ill. Dep't of Transp.,
643 F.3d 190 (7th Cir. 2011). . . . . . . . . . . . . . . . 34
Philadelphia, Wilmington & Baltimore Railroad
Co. v. Hoeflich, 62 Md. 300 (1884) . . . . . . . . . . . 37
Pollar v. Columbia Broadcasting Sys., Inc.,
368 U.S. 464 (1962). . . . . . . . . . . . . . . . . . . . . . . 25
Products Co. v. Champlin Refining Co.,
283 U.S. 494, 51 S.Ct. 513,
75 L.Ed. 1188 (1931) . . . . . . . . . . . . . . . . . . . . . . 40
Reeves v. Sanderson Plumbing Prods., Inc.,
197 F.3d 688 (5th Cir. 1999). . . . . . . . . . . . . . . . 30
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000). . . . . . . . . . . 25, 26, 28, 30, 35
Reizakis v. Loy,
490 F.2d 1132 (4th Cir. 1974). . . . . . . . . . . . . . . 19
Renchard v. Prince William Marine Sales, Inc.,
87 F.Supp. 3d 271 (D.D.C. 2015) . . . . . . . . . . . . 22
Rhoads v. F.D.I.C.,
257 F.3d 373 (4th Cir. 2001). . . . . . . . . . . . . . . . 31
Saunders v. Branch Banking & Tr. Co. of Va.,
526 F.3d 142 (4th Cir. 2008). . . . . . . . . . . . . . . . 35
Shellenberger v. Summit Bancorp, Inc.,
318 F.3d 183 (3d Cir. 2003) . . . . . . . . . . . . . . . . 34

xii
Siantou v. CVS Rx Servs.,
No. 8:17-cv-00543-PWG, 2018 U.S. Dist.
LEXIS 208289 (D. Md. Dec. 7, 2018) . . . . . . . . ii, 2
Siantou v. CVS Rx Servs.,
Nos. 19-2262 (L), 19-2313, 2021 U.S. App.
LEXIS 1592 (4th Cir. Jan. 20, 2021) . . . . . . . iv, 1
United States v. Leggett & Platt, Inc.,
542 F.2d 655 (6th Cir. 1976). . . . . . . . . . . . . . . . 19
Wantou Siantou v. CVS Rx Servs.,
822 F. App'x 204 (4th Cir. 2020) . . . . . . . . . . iii, 1
Wantou Siantou v. CVS Rx Servs.,
No. 8:17-cv-543-PWG, 2020 U.S. Dist.
LEXIS 6091 (D. Md. Jan. 14, 2020) . . . . . . . . iii, 1
Westberry v. Gislaved Gummi AB,
178 F.3d 257 (4th Cir. S.C. May 20, 1999) . . . . 19
Wilson v. Volkswagen of Am.,
561 F.2d 494 (4th Cir. 1977). . . . . . . . . . 19, 20, 21
Constitution and Statutes
Const. amend V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Const. amend VII . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 USCS § 1981 . . . . . . . . . . . . . . . . . . . . . . . . 5, 8, 12
42 USCS § 2000e-2. . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Md. STATE GOVERNMENT Code Ann. § 20-602
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

xiii
Md. STATE GOVERNMENT Code Ann. § 20-606
........................................... 3
Rules
D. Md. Rules 2-501 (a) . . . . . . . . . . . . . . . . . . . . . . . . 6
Fed. R. Civ. 42(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
Fed. Rule Civ. Proc. 56(a) . . . . . . . . . . . . . . . . . . 5, 22
Rule 50 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Supreme Court Rule 29.6. . . . . . . . . . . . . . . . . . . . . . ii

1
PETITION FOR A WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the decisions of the
United States’ Fourth Circuit Court dismissing his
petition for rehearing and affirming the United States
District Court for the District of Maryland’s grant of
summary judgment to the Respondent.
OPINIONS BELOW
The January 20, 2021 decision from the Fourth
Circuit Court of Appeals can be found at Siantou v.
CVS Rx Servs., Nos. 19-2262 (L), 19-2313, 2021 U.S.
App. LEXIS 1592 (4th Cir. Jan. 20, 2021)and is
reproduced in the Appendix (“Pet. App. 83a-84a”) at
Pet. App. 83a-84a.
The September 24, 2020 decision from the Fourth
Circuit Court of Appeals can be found at Wantou
Siantou v. CVS Rx Servs., 822 F. App’x 204 (4th Cir.
2020)and is reproduced in the Appendix (“Pet. App. 1a3a”) at Pet. App. 1a-3a.
The January 14, 2020 decision from the United
States District Court for the District of Maryland can
be found at Wantou Siantou v. CVS Rx Servs., No. 8:17cv-543-PWG, 2020 U.S. Dist. LEXIS 6091 (D. Md. Jan.
14, 2020). This decision is reproduced in the Appendix
(“Pet. App. 4a-32a”) at Pet. App. 4a-32a.
The November 5, 2019 decision from the United
States District Court for the District of Maryland can
be found at In re Siantou v. CVX Rx Servs., No. PWG17-0543, 2019 U.S. Dist. LEXIS 195820 (D. Md. Nov. 5,

2
2019). This decision is reproduced in the Appendix
(“Pet. App. 33a-42a”) at Pet. App. 33a-42a.
The December 7, 2018 decision from the United
States District Court for the District of Maryland can
be found at Siantou v. CVS Rx Servs., No. 8:17-cv00543-PWG, 2018 U.S. Dist. LEXIS 208289 (D. Md.
Dec. 7, 2018). This decision is reproduced in the
Appendix (“Pet. App. 45a-82a”) at Pet. App. 45a-82a.
BASIS FOR JURISDICTION IN THIS COURT
The Fourth Circuit Court of Appeals affirmed the
decision of the United States District Court for the
District of Maryland on September 24, 2020. (Pet. App.
2a). This Court has jurisdiction pursuant to statutory
provisions 28 U.S.C. § 1254(1) to review on writ of
certiorari the decision of the United States Court of
Appeals for the Fourth Circuit. This matter brings
questions of law that are unsettled.
In Grable & Sons Metal Products, Inc. v. Darue
Eng’g & Mfg, 545 U.S. 308 (2005), this Court
articulated a standard for federal question jurisdiction.
The federal issue must be “actually disputed and
substantial,” and it must be one that the federal courts
can entertain without disturbing the balance between
federal and state judicial responsibility. Id. at 314.
Here, that question is whether Fourth Circuit erred in
determining that Wantou’s claims of retaliation and
violation of his Fifth and Seventh rights were
unfounded.

3
STATUTORY PROVISIONS INVOLVED
42 USCS § 2000e-2
(a) Employer practices. It shall be an unlawful
employment practice for an employer—
(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against
any individual with respect to his compensation,
terms, conditions, or privileges of employment,
because of such individual’s race, color, religion,
sex, or national origin; or
(2) to limit, segregate, or classify his employees
or applicants for employment in any way which
would deprive or tend to deprive any individual
of employment opportunities or otherwise
adversely affect his status as an employee,
because of such individual’s race, color, religion,
sex, or national origin.
Md. STATE GOVERNMENT Code Ann. § 20-606
(a) Employers. -- An employer may not:
(1) fail or refuse to hire, discharge, or otherwise
discriminate against any individual with respect
to the individual’s compensation, terms,
conditions, or privileges of employment because
of:
(i) the individual’s race, color, religion, sex, age,
national origin, marital status, sexual
orientation, gender identity, genetic information,
or disability unrelated in nature and extent so

4
as to reasonably preclude the performance of the
employment; or
(ii) the individual’s refusal to submit to a genetic
test or make available the results of a genetic
test;
(2) limit, segregate, or classify its employees or
applicants for employment in any way that
would deprive or tend to deprive any individual
of employment opportunities or otherwise
adversely affect the individual’s status as an
employee because of:
(i) the individual’s race, color, religion, sex, age,
national origin, marital status, sexual
orientation, gender identity, genetic information,
or disability unrelated in nature and extent so
as to reasonably preclude the performance of the
employment; or
(ii) the individual’s refusal to submit to a genetic
test or make available the results of a genetic
test;
(3) request or require genetic tests or genetic
information as a condition of hiring or
determining benefits;
(4) fail or refuse to make a reasonable
accommodation for the known disability of an
otherwise qualified employee; or
(5) engage in harassment of an employee.

5
42 USCS § 1981
(a) Statement of equal rights. All persons within
the jurisdiction of the United States shall have
the same right in every State and Territory to
make and enforce contracts, to sue, be parties,
give evidence, and to the full and equal benefit
of all laws and proceedings for the security of
persons and property as is enjoyed by white
citizens, and shall be subject to like punishment,
pains, penalties, taxes, licenses, and exactions of
every kind, and to no other.
(b) “Make and enforce contracts” defined. For
purposes of this section, the term “make and
enforce contracts” includes the making,
performance, modification, and termination of
contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the
contractual relationship.
(c) Protection against impairment. The rights
protected by this section are protected against
impairment by nongovernmental discrimination
and impairment under color of State law.
Fed. Rule Civ. Proc. 56(a)
A party may move for summary judgment,
identifying each claim or defense - or the part of
each claim or defense—on which summary
judgment is sought. The court shall grant
summary judgment if the movant shows that
there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law. The court should state on the

6
record the reasons for granting or denying the
motion.
D. Md. Rules 2-501 (a)
Any party may file a written motion for
summary judgment on all or part of an action on
the ground that there is no genuine dispute as to
any material fact and that the party is entitled
to judgment as a matter of law. The motion shall
be supported by affidavit if it is (1) filed before
the day on which the adverse party’s initial
pleading or motion is filed or (2) based on facts
not contained in the record. A motion for
summary judgment may not be filed: (A) after
any evidence is received at trial on the merits, or
(B) unless permission of the court is granted,
after the deadline for dispositive motions
specified in the scheduling order entered
pursuant to Rule 2-504 (b)(1)(E).
United States Constitution Amendment V:
No person shall be… be deprived of life, liberty,
or property, without due process of law;
United States Constitution Amendment VII:
In suits at common law, where the value in
controversy shall exceed twenty dollars,
the right of trial by jury shall be preserved, and
no fact tried by a jury, shall be otherwise
reexamined in any court of the United States,
than according to the rules of the common law.

7
Rule 50. Judgment as a Matter of Law in a Jury Trial:
(a) Judgment as a Matter of Law.
(1) In General. If a party has been fully heard on
an issue during a jury trial and the court finds
that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party
on that issue, the court may:
(A) resolve the issue against the party; and
(B) grant a motion for judgment as a matter of
law against the party on a claim or defense that,
under the controlling law, can be maintained or
defeated only with a favorable finding on that
issue.

8
STATEMENT OF THE CASE
A. Bringing the Claims to Federal Court.
Petitioner initially filed his claims in the United
States District Court for the Northern District of Texas
on December 14, 2016, alleging that he was unlawfully
terminated in violation of Title VII, 42 U.S.C. § 2000e.
(Pet. App. 5a). Petitioner later filed a motion to
transfer venue to the United States District Court for
the District of Maryland, which was granted. (Pet. App.
5a). On June 7, 2017, Petitioner filed his Amended
Complaint advancing four counts against the
Defendant: race discrimination (Count I) and
retaliation based on his protected class status (Count
IV); national-origin discrimination (Count II); and
gender discrimination (Count III), in violation of Title
VII, 42 U.S.C. § 2000e, and 42 U.S.C. § 1981, and the
Maryland Fair Employment Practices Act (“MFEPA”),
Maryland Code, Title 20, Section 20-601, et. seq.,
respectively. (Pet. App. 5a-6a).
In response, Respondent CVS filed a motion arguing
that Petitioner had failed to administratively exhaust
some of his claims under Title VII and the Maryland
Fair Employment Practices Act. (Pet. App. 6a). This
motion was granted by the trial court, and CVS
ultimately moved for summary judgment on the
remaining claims. (Pet. App. 6a). The Court opted to
partially grant summary judgment on December 7,
2018. (Pet. App. 7a).

9
B. Concise Statement of Facts Pertinent to
the Questions Presented.
Petitioner Stephane Wantou Siantou (“Wantou”)
was employed as the head pharmacist at a CVS drug
store in Oxon Hill, Maryland between July 2014 and
January 2016. (Pet. App. 46a). During this time period,
Wantou claims that he was subject to unlawful racial
discrimination due to his gender, race, and African
heritage. (Pet. App. 46a-47a). Furthermore, he alleges
that his January 2016 termination was retaliatory and
illegal under several federal and state laws. (Pet. App.
45a-46a).
From the very beginning of his tenure, Wantou felt
that CVS’s actions towards him were colored by
unlawful racial bias. (Pet. App. 46a-47a).
One of the worst points in Wantou’s relationship
with his supervisor, pharmacy supervisor Tiana
Holmes (“Holmes”) occurred on January 24, 2015.(Pet.
App. 48a-50a). On the day in question, Wantou
returned to work after calling in sick even though he
was still severely ill. (Pet. App. 49a). After alerting
Holmes of his condition and asking in vain if another
pharmacist could fill in for him, Wantou received
permission from Holmes to warm up in his car. (Pet.
App. 49a). Wantou spent the majority of his shift going
back and forth between the pharmacy and his car in
order to warm up. (Pet. App. 49a).Despite presenting a
Doctor’s note excusing his absence, and emergency
room notes, Wantou was issued a Level I reprimand by
Holmes for absence due to his illness, which Petitioner
promptly reported to human resources. (Pet. App. 49a50a).

10
On or around March 1, 2015, Wantou filed a formal
complaint of discrimination citing the disparate
treatment provided to him by management in
comparison to his co-pharmacist. (Pet. App. 51a). A few
days after Wantou’s complaint, CVS revisited the
events of January 24, 2015, and accused Wantou of
leaving the pharmacy unattended on January 24, 2015.
On April 15, 2015 CVS issued a Level III discipline to
Wantou for allegedly leaving the pharmacy unattended
on January 24, 2015. On April 15, 2015, Holmes issued
a Level III to Wantou for leaving the pharmacy
unattended on January 24, 2015. Wantou then
immediately filed a complaint of retaliation to the
EEOC, stating that the Level III discipline was for
filing a complaint of discrimination on March 1, 2015.
Wantou was ultimately fired from his position in
January of 2016. (Pet. App. 57a-58a). Latara Wellman,
a pharmacy technician at the Oxon store, became
involved in a physical altercation with a disgruntled
customer and as a result, CVS management ordered
Wantou to fire her. (Pet. App. 56a). Holmes claims that
she gave Wantou this directive in November and then
again in December 2015, although Wantou has
maintained that he did not receive this instruction
until January 2016. (Pet. App. 56a-57a). Regardless, on
January 8, 2016 Holmes told Wantou that he had until
the end of the day to fire Ms. Wellman or he would be
terminated. (Pet. App. 57a). Wantou asked Holmes if
he could put the directive in writing, but this request
was denied by Holmes. (Pet. App. 57a).
Wantou immediately called the CVS ethics
complaint line and claimed that Holmes was trying to

11
put him in an impossible position. If Wantou fired Ms.
Wellman, Holmes could deny having given him that
instruction to retaliate against him, as she had done in
the past (In February 2019, a jury found that Holmes
retaliated against Wantou when she issued him a Level
III discipline stating that he disobeyed her in going to
his car to warm while the evidence showed that she
gave Wantou permission to go to his car). As other
employees in the store, including the store manager
(Roland Saibu)1, Wantou believed that Latara Wellman
was attacked by the customer, and that she defended
herself from the customer. Furthermore, Wantou filed
more complaints through the CVS ethics line on
January 3, January 5, and January 7 claiming racial
discrimination and retaliatory actions on the part of his
employer. (Pet. App. 57a). Ultimately, Wantou was
fired by Holmes on January 11, 2016. (Pet. App. 57a58a).

1

Roland Saibu said, in his deposition, that immediately after the
altercation, he talked to shift manager and eye witness Yolanda (a
shift manager), and she said that the customer had verbally and
physically threatened Wellman, had trespassed to attack Wellman,
and that Wellman tried to defend herself, and that this was the
“consensus in the store” (ECF 72-30, Roland’s deposition, [40:7-8],
[40:2-3], [40:21], [41:2], [40:11-12]). Roland also said that this was
confirmed by him after he watched the video (ECF 72-30, Roland’s
deposition, [42:9-15]).

12
C. Procedural History
On December 14, 2016, Wantou brought suit
against CVS in the United States District Court for the
Northern District of Texas claiming that he was
subjected to discrimination due to his race, gender, and
national origin and fired as an act of retaliation. (Pet.
App. 5a). Shortly thereafter, the case was transferred
to The United States District Court for the District of
Maryland. (Pet. App. 5a).
CVS filed a motion for summary judgment, which
was partially granted by the District Court on
December 7, 2018. (Pet. App. 5a). The Court allowed
the claim of retaliation related to Wantou’s discipline
for leaving the pharmacy to proceed to trial. (Pet. App.
7a-8a).
The trial arrived at two distinct conclusions. First,
after a seven-day jury trial on liability, a jury returned
a verdict in favor of Wantou on his retaliation claim,
awarding him $125,000 in compensatory damages.
(Pet. App. 8a). Second, a three-day jury trial was held
before a different jury to determine whether Plaintiff
was entitled to punitive damages. (Pet. App. 8a). On
this issue, the jury returned a verdict in favor of CVS.
(Pet. App. 8a). Both parties attempted to overturn the
adverse decisions against them; both parties requests
were denied by the Maryland District Court on
November 5, 2019. (Pet. App. 41a-42a).
Wantou appealed the District Court’s decisions
i) finding for CVS on the punitive damages claim, and
ii) granting CVS’s motions for summary judgment. On
September 24, 2020, the United States Court of

13
Appeals for the Fourth Circuit affirmed the decision of
the District Court, finding “no reversible error.”(Pet.
App. 2a-3a). On January 20, 2021, the Fourth Circuit
denied Wantou’s petition for rehearing and rehearing
en banc without further elaboration. (Pet. App. 83a84a).
This Petition for Writ of Certiorari followed.

14
REASONS TO GRANT THIS PETITION
I.

The United States District Court for the
District of Maryland Erred When It
Dismissed the Impaneled Jury and
Ordered a Separate Trial on Punitive
Damages Without Requiring the
Knowledge and Consent of the Plaintiff.

This Court should find that the District Court erred
when it dismissed the jury in Wantou’s liability case
and ordered a new trial on the issue of damages, all
without providing Wantou the opportunity to object
and without seeking his knowledge or consent. As a
result, this Court should find that Wantou was
prejudiced by the District Court’s actions.
A. The District Court Erred When It
Dismissed the Jury in Wantou’s Trial
Without Providing Him an Opportunity
to Be Heard
The Due Process Clause of the Fifth Amendment to
the United States Constitution guarantees a claimant’s
right “to be heard at a meaningful time in a meaningful
manner.” Mathews v. Eldridge, 424 U.S. 319, 333, 96 S.
Ct. 893, 47 L. Ed. 2d 18 (1976).”Due process requires
that parties be given notice and an opportunity to be
heard before an ultimate judicial determination is
made.” In re Circuit City Stores, Inc., No. 08-35653,
2009 Bankr. LEXIS 4011 at *8 (Bankr. E.D. Va. Dec. 3,
2009).
The United States District Court for the District of
Maryland erred when it dismissed the impaneled jury,
who was to hear the punitive damages phase right

15
after reaching the verdict on the liability phase,
without providing Wantou an opportunity to be heard,
to participate, or to consult with his attorney. Near the
close of Wantou’s trial on the issue of liability, the
District Court gave the Defendant CVS the latitude to
delay the trial for several days at the Defendant’s sole
convenience. (Pet. App. 85a-87a). Wantou made his
opposition to this delay known; he wished to return to
his place of residence in Texas as soon as possible to
resume his daily activities. (Pet. App. 87a).
The District Court then inquired as to the parties’
opinions on dismissing the impaneled jury and trying
the issue of issue of punitive damages. (Pet. App. 87a).
CVS was in favor of the idea, while Wantou’s attorney
remained silent.(Pet. App. 87a). At this point, the
Court motioned for Petitioner’s Counsel to approach
the bench. (Pet. App. 90a). This prevented Wantou
from hearing and participating in this important
discussion in which his rights would be infringed. The
Court and Wantou’s attorney held a private bench
conference on the issue of dismissing the impaneled
jury. (Pet. App. 90a).This discussion took place right
before the District judge ordered the impaneled jury
waiting outside to enter the room and read the verdict.
Right after the discussion, the District judge ordered
the jury enter the courtroom and read the verdict.
Immediately after the verdict was read, the District
judge dismissed the jury after having the counsels
repeat their agreement to dismiss the jury (Pet. App.
90a). It is only at this point that Wantou became
aware that the jury was being dismissed.

16
In making this decision, the District Court failed to
provide Wantou an opportunity to be heard. The Due
Process Clause requires that parties be given notice
and an opportunity to be heard before an ultimate
judicial determination is made. See In re Circuit City
Stores, Inc., No. 08-35653 at *8.
The agreement between the Court and the
counselors dismissing the jury cannot be attributed to
Wantou, since it was done in violation of Wantou’s
Fifth amendment right to participate and be heard.
“Since an attorney is merely the representative or
agent of the litigant and not the litigant’s “alter ego,”
Carlisle v. County of Nassau, 64 App. Div.2d 15, 19,
408 N.Y.S.2d 114, 117 (1978), and “a court may not
exclude arbitrarily a party who desires to be present
merely because he is represented by counsel; such
exclusion would violate the due process clause of the
Fifth Amendment.” Helminski v. Ayerst Lab., a Div. of
A.H.P.C, 766 F.2d 208, 213 (6th Cir. 1985).
By failing to provide Wantou with an opportunity to
be heard and voice his objections to dismissal of the
jury and the postponement of the trial on the record,
the District Court denied him due process of law.2

2

Wantou has also alleged that the District Court violated his Fifth
Amendment rights when, shortly after dismissing the jury, the
District Court judge held an outside-of-the-Courtroom, off-the
record, private conference call with the attorneys, without inviting
Wantou, and referred his case to a settlement conference. This
creates the appearance that the real reason for the jury dismissal
was to order a settlement conference to the benefit of the District
Judge, the plaintiff’s counsel (who was working on a contingency
basis) and CVS’s counsel.

17
Wantou was not provided with an opportunity to be
heard at a meaningful time and in a meaningful
manner, and consequently this Court should find that
the District Court violated the Due Process Clause of
the Fifth Amendment.
B. The District Court Erred When It
Allowed Wantou’s Attorney to Consent
to What Was Effectively a Postponement
Without Receiving the Knowledge and
Consent of His Client.
Furthermore, the District Court erred when it
allowed Wantou’s trial counsel to effectively postpone
the date of the trial without Wantou knowledge and
consent.
In a discussion regarding whether or not to
postpone the punitive damages trial, the Court offered
to dismiss the impaneled jury and for that portion of
the dispute to be heard in front of another jury.(Pet.
App. 87a – 90a). Wantou made it known that he would
be returning to his home state of Texas after the
conclusion of the proceedings, and that he wished to see
them conclude quickly. (Pet. App. 87a). Trial Counsel
initially remained silent when asked by the court if he
would accede to such an agreement. (Pet. App. 87a).
However, after a bench conference with the judge,
excluding Wantou and inaudible to Wantou, Trial
Counsel immediately agreed to the proposal without
first consulting his client.(Pet. App. 90a).
Maryland Rule 107 clearly delineates that “no
motion seeking the postponement of any trial shall be
made by any counsel without the knowledge and

18
consent of the client whom that counsel represents.” D.
Md. Rules 107 (2). Rule 107 shows that that the U.S.
District Court of Maryland itself recognizes that the
postponing of a trial, let alone the postponing of a trial
and dismissing of a jury, as part of a client’s
fundamental rights that requires his explicit consent,
and cannot be done only through an agreement with
his counsel.
In deciding to dismiss the impaneled jury and have
the case heard by a different jury at an undetermined
date, the Court was effectively engaging in a
postponement proceeding. Therefore, this Court should
find that the District Court erred in dismissing the
impaneled jury and postponing the trial without first
ensuring that Wantou had an opportunity to provide
knowledge and consent to his attorney.
II.

The Fourth Circuit Court of Appeals Erred
in Affirming the Order of the District Court
When They Held That The District Court of
Maryland Did Not Commit Reversible
Error.

This Court should find that the Fourth Circuit
Court of appeals erred when it concluded that the
District Court did not commit reversible error. The
Fourth Circuit failed to conduct a thorough review of
the facts, and consequently this Court should grant
Wantou’s appeal and overturn the Fourth Circuit’s
decision.
Generally speaking, the Trial Court has discretion
to apply the law to the cases before them as they see
fit. However, the role of the appellate courts is to

19
ensure the soundness of the trial court’s reasoning, not
merely to act as a “rubber stamp” for the Trial Court’s
decision. Wilson v. Volkswagen of Am., 561 F.2d 494,
506 (4th Cir. 1977). The Fourth Circuit has previously
found that “[even] if a district court applies the correct
legal principles to adequately supported facts, the
discretion of the trial court is not boundless and subject
to automatic affirmance. Westberry v. Gislaved Gummi
AB, 178 F.3d 257, 261 (4th Cir. S.C. May 20, 1999)
(citing Wilson, 561 F.2d 494 at 506).
In the words of the Fourth Circuit Court of Appeals,
This does not mean, though, that an appellate
court should automatically affirm such exercise
of discretion. It has been said that an appellate
court “would be remiss in [its] duties if [it] chose
only to rubber stamp such orders of lower
courts.” On the contrary, it is obligated “to
consider the full record” as well as the reasons
assigned by the Trial Court for its judgment, and
to reverse the judgment below, if after such
review, the appellate court “‘has a definite and
firm conviction that the court below committed
a clear error of judgment in the conclusion it
reached upon a weighing of the relevant
factors.’”
Wilson, 561 F.2d 494 at 506 (citing Finley v.
Parvin/Dohrmann Company, Inc., 520 F.2d 386, 390
(2d Cir. 1975), In re Josephson, 218 F.2d 174, 182 (1
Cir. 1954), Reizakis v. Loy, 490 F.2d 1132, 1135 (4th
Cir. 1974), Anderson v. Air West, Inc., 542 F.2d 522,
524 (9th Cir. 1976), United States v. Leggett & Platt,
Inc., 542 F.2d 655, 658-9 (6th Cir. 1976).

20
Traditionally, when “a district court exercises its
discretion in a case-dispositive manner, this court
should scrutinize the exercise of that discretion with
care to ensure that there has not been ‘an error of
judgment’ by the district court. Where, as here, such a
prejudicial error of judgment comes before us, [the
Fourth Circuit Court of Appeals] should correct the
error. Aikens v. Ingram, 652 F.3d 496 (4th Cir. 2011)
(citing Wilson, 561 F.2d 494 at 506). This requirement
applies to the award of punitive damages cases as well.
See Johnson v. Hugo’s Skateway, 949 F.2d 1338 (4th
Cir. 1991)
This Court should find that the Fourth Circuit
Court of Appeals erred when it affirmed the order
granted by the District Court and found that the record
did not present any reversible error. (Pet. App. 2a 3a).The opinion issued by the Fourth Circuit was less
than one page long and did not include any reasons
why Wantou’s claims were not supported by a
reasonable review of the record. (Pet. App. 2a - 3a).
Wantou’s claims clearly have substantial merit. He
was deprived of due process of law, claimed that he was
subjected to a byzantine process that caused him
prejudice, and went through years of protracted
litigation. The record submitted to the Fourth Circuit
was lengthy and related to many complex issues. The
claims presented to the Fourth Circuit concerned a
serious allegation of racial prejudice on the part of a
large corporation.
Despite these myriad reasons to treat Wantou’s case
with the utmost care, the Fourth Circuit was unable or
unwilling to justify its holding on either factual or legal

21
grounds. Based on the decision issued, the Fourth
Circuit appears to have acted as a mere “rubber stamp”
for the District Court. The Court of Appeals’ decision in
Wantou is the exact type of ruling that it had
previously cautioned against in Wilson. As a result,
this Court should find that the Fourth Circuit erred
when it unquestioningly affirmed the decision of the
District Court and found that the record did not
present any reversible error.
III.

The Fourth Circuit Court of Appeals Erred
when it Affirmed the United States District
Court for the District of Maryland’s
Decision Granting the Rule 56 Standard for
Summary Judgment

The District Court erred when it granted CVS’s
motion for summary judgment. The Fourth Circuit
Court of Appeals compounded this error when it
affirmed the District Court’s opinion on appeal.
A. The District Court improperly applied
the burden shifting framework found in
Federal Rule of Civil Procedure 56
The District Court found that there was:
[no] way for Wantou to satisfy his burden of
showing he would not have been fired but for his
complaints to management or the EEOC. I
conclude his termination does not support a
retaliation claim under state or federal law.
See Pet. App. 80a.

22
Under Federal Rule of Civil Procedure 56(a),
Wantou does not have the burden of showing that he
would not have been terminated but for his complaints
to management or the EEOC. It is the movant and
Defendant CVS that has the burden to show that there
or no issues of material facts or genuine issues for trial.
Fed. Rule Civ. Proc. 56(a). See also Renchard v. Prince
William Marine Sales, Inc., 87 F.Supp. 3d 271, 277
(D.D.C. 2015).
As a result, this Court should find that the Fourth
Circuit erred in affirming the District Court’s decision
since it was based on an impermissible burden shifting
under Federal Rule 56(a). This error caused Petitioner
prejudice, and consequently this Court should grant
Wantou’s petition.
B. Genuine issues of material fact
remained unsettled at the time of the
District Court’s decision to grant CVS’
motion for summary judgment.
Not only did the District Court err by shifting
to Wantou the burden of disproving CVS’ official
reason for his firing, it also erred by resolving material
facts in dispute in favor of CVS. A motion for summary
judgment is only proper when “there can be but
one reasonable conclusion as to the verdict. “Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986).
In the instant case, there is no question that CVS
had a retaliatory animus against Petitioner, as the jury
unanimously found that CVS’s Level III reprimand of
April 15, 2015 meted out to Petitioner was illegally
retaliatory.

23
On the issue of termination, the District Judge
found that Petitioner made a prima facie case on
retaliation, as he stated “These facts persuade me that
Mr. Wantou has met his burden, at the summary
judgment stage, of establishing a prima facie case for
both the April 2015 Level III warning and his January
2016 termination.” In addition, the District Court
noted that Petitioner’s termination occurred mere
days after he registered a series of complaints with the
CVS ethics complaint line.” Still, the District Court
granted CVS summary judgment, stating: “there is still
no question that Wantou-knowing a member of his staff
had physically assaulted a customer (a fireable offense)
— disobeyed a direct order, despite a warning that his
refusal to comply with his supervisor’s instructions
could result in termination.”
As an initial matter, the District Court’s decision
erroneously resolved all the disputed issues in favor
of the defendant. The District judge erroneously
credited CVS’s allegation that Wellman assaulted a
customer. CVS’s allegation that Wellmanassaulted a
customer is contradicted not only by Petitioner’s
affidavit (which opposed summary judgment in
accordance with Rule 56(c)(4)) (ECF 72Ex. 5, Wantou
affidavit ¶ 67), but also by the deposition testimony of
the store manager, Roland Saibu (“Roland”) (ECF 7230, Roland’s deposition,[40:7-8], [40:2-3], [40:21], [41:2],
[40:11-12]). As such it is a material fact in dispute to be
resolved by a jury, not the Court, and CVS is not
entitled to be believed on this issue, based on mere
conclusory assertions.

24
In his affidavit, Petitioner stated that eyewitnesses
were unanimous that it was the customer that had
attacked Wellman in the restricted area of the
pharmacy.” (ECF 72-Ex. 5, Wantou affidavit ¶ 67). This
is substantiated by deposition testimony from the store
manager, Roland, (ECF 72-30, Roland’s deposition,
[40:7-8], [40:2-3], [40:21], [41:2], [40:11-12]). Roland
said that immediately after the altercation, he talked
to shift manager and eyewitness Yolanda (a shift
manager), and she said that the customer had verbally
and physically threatened Wellman, had trespassed to
attack Wellman, and that Wellman tried to defend
herself, and that this was the “consensus in the store”
(ECF 72-30, Roland’s deposition, [40:7-8], [40:2-3],
[40:21], [41:2], [40:11-12]). Roland also said that this
was confirmed by him after he watched the video (ECF
72-30, Roland’s deposition, [42:9-15]).
Second, the District Court erred in making the
determination that Petitioner was insubordinate and
refused to terminate Wellman on January 8, 2016. The
record shows that Petitioner did not refuse to
terminate Wellman when given the instruction to do so
on January 8, 2016; instead, Petitioner asked that
Holmes put the instruction in writing and contacted
the CVS Ethics Line. Petitioner believed that
Holmes could use Petitioner’s compliance with her
instruction to later retaliate against him, given her
history of doing so, as she had done when she retaliated
on April 15, 2015. The record shows that Petitioner was
justified in his fear, as a jury found, and the Fourth
Circuit upheld, that CVS and Holmes retaliated
against Petitioner when she meted him a Level III
discipline on April 15, 2015 (ECF 130, ECF 165) for

25
doing precisely what she had approved. As to this Level
III discipline of April 15, 2015, the trial record shows
that Holmes gave permission to Petitioner to go to his
car and later lied about it to retaliate against him,
alleging that Petitioner had been insubordinate in
going to his car (2/25/19 Tr. PM Holmes 7:21-25; 8:1-4),
(2/25/19 Tr. PM Holmes 84:14-25; 85:1-13).
A “judge’s function at summary judgment is not ‘to
weigh the evidence and determine the truth of the
matter but to determine whether there is a genuine
issue for trial. “Anderson v. Liberty Lobby, Inc, 477 U.S.
242, 249 (1986), and “it is only when witnesses are
present and subject to cross-examination that
their credibility and the weight to be given their
testimony can be appraised.” Pollar v. Columbia
Broadcasting Sys., Inc., 368 U.S. 464, 473 (1962).
“Thus, the court must review all the evidence in the
record,” (Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000). at 135 (citing Matasushita v. Elec.
Industrial Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986))), “drawing all reasonable inferences in favor of
the nonmoving party, but making no credibility
determinations or weighing evidence (Id. (citing
Lytle v. Household Mfg., Inc., 494 U.S. 545, 554555(1990))).”The latter functions, along with the
drawing of legitimate inferences from the facts, are for
the jury, not the court.” Id. (citing Anderson v. Liberty
Lobby, Inc, 477 U.S. 242, 255 (1986)). “Thus, although
the court reviews the record as a whole, it must
disregard all evidence favorable to the moving party
that the jury is not required to believe.” Id.

26
Not only did the District Court misconstrue the
facts, but it also disregarded evidence of animus and
mendacity on the part of Holmes, which can establish
pretext, and therefore suffices to create a genuine issue
of material fact. And even if one assumes, arguendo,
that Petitioner was insubordinate, the District
Court’s decision is still at odds with Supreme Court’s,
the Fourth Circuit, and other circuits’ precedents as
will be shown below.
The District Court correctly pointed out that
Petitioner’s “response in opposition to the motion for
summary judgment argues emphatically that Ms.
Holmes was not telling the -truth when she said she
personally instructed him on November 25, 2015, and
again on December 17, 2015, to fire Ms. Wellman.”
However, the District Court erroneously dismissed this
apparent falsity as immaterial on the basis that
Petitioner was allegedly insubordinate regardless of
falsity in CVS’s explanation. This was manifestly
erroneous, as the issue to be resolved by the trier of
fact was not whether Petitioner was insubordinate but
instead, whether the alleged insubordination was the
real reason CVS fired Petitioner or just a convenient
pretext for retaliation. Petitioner’s only duty at
summary judgment stage was to show that genuine
issues of material fact as to pretext existed, e.g., by
showing that CVS’s explanation was false or
unworthy of credence. This is because “it is
permissible for the trier of fact to infer the ultimate
discrimination[/retaliation] from the falsity of the
employer’s
explanation. “Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 147 (2000). “[T]he
factfinder is entitled to consider a party’s dishonesty

27
about a material fact as affirmative evidence of guilt.”
Id. Here, the ultimate issue to be resolved by the trier
of fact is not whether Petitioner was insubordinate but
instead whether insubordination served a pretext for
retaliating against Petitioner. Hence, any fact tending
to show pretext, notably the falsity in CVS’s
explanation itself, is material.
The District Court’s finding that no genuine
issue of material fact existed in Wantou’s case is
clearly erroneous, and as a result this Court should
find that the Fourth Circuit’s affirmance of that
decision was in error.
C. The District Court Summary Judgment
Decision on the Petitioner’s Retaliation
Claim Related to His Termination is in
Conflict With Supreme Court Precedent
Set in Reeves vs. Sanderson, Other
Supreme Court Cases and Other Fourth
Circuit Precedents.
Even if one assumes, arguendo, that petitioner was
insubordinate, the District Court and Panel decision is
still at odds with Reeves by holding that even if Holmes
lied about instructing Petitioner to terminate Wellman
on November 25, 2015 and December 17, 2015,
Petitioner cannot prevail in his retaliation claim
regarding his termination by Holmes. The District
Court manifestly erred in ascribing as legitimate, an
explanation that CVS itself did not allege for
terminating Petitioner. See, e.g., Lee v. Russell County
Bd. Of Educ., 684 F.2d 769, 775 (11th Cir. 1982)
(rejecting, on appeal, the legitimate nondiscriminatory
reasons/explanation “assigned by the court” because

28
they were “not [reasons/ explanations] articulated by
[the decision-makers] when they were questioned”).
Namely, Holmes herself alleges giving an ultimatum to
Petitioner on January 8, 2016 on account that on two
prior occasions (allegedly on November 25, 2015 and
December 17, 2015) she had allegedly instructed
Petitioner to terminate Wellman and Petitioner failed
to do so (Holmes’s deposition, ECF 72-1(C): [293:1215]); but the District Court dismissed the showing of
falsity by Petitioner as to the allegation by Holmes that
she had instructed Petitioner on two prior occasions
(November 25, 2015 and December 17, 2015) to
terminate Wellman, with the District Court reasoning
that there was no dispute that Holmes instructed
Petitioner at least once, on January 8, 2016, to
terminate Wellman.
CVS justified terminating Petitioner due to
Petitioner allegedly failing to terminate Wellman after
Petitioner was told three times by Holmes to terminate
Wellman. Petitioner proved that the allegation that he
was told three times to terminate Wellman was false,
and that the first and only time he was ever told by
Holmes to terminate Wellman was on January 8, 2016.
“[O]nce the employer’s justification has been
eliminated, discrimination[/retaliation] may well be the
most likely alternative explanation, especially since the
employer is in the best position to put forth the actual
reason for its decision. “Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 134 (2000). It is not for the
DISTRICT COURT to determine whether instructing
Petitioner once, twice, or three times would constitute
a valid reason for terminating Petitioner, but instead,
the duty of the District Court, at summary judgment

29
stage, is to determine whether the explanation given by
CVS for terminating Petitioner (namely that CVS gave
Petitioner an instruction three times that Petitioner
failed to follow) suffers no issue as to falsity and hence
pretext. In addition, there would be no reason for
Holmes to fabricate instructing Petitioner to terminate
Wellman on November 25, 2015 and December 17,
2015if not for improper motives, including retaliation.
Wantou presented evidence that Holmes was not
telling the truth when she stated that she instructed
him in November 2015 and December 2015 (ECF #70-1,
p. 28-31). In particular, at deposition, store manager
Saibu completely contradicted Holmes’ claim that she
gave an in-person instruction to Wantou on November
25, 2015 or December 17, 2015 (ECF 72-30, Saibu 55:
21-22; 56:1-5; 56: 14-18; 61: 2-3; 61: 9-17; 63:12-21;
66:1-4)3.
In granting the defendant’s motion for summary
judgment, the District Court stated that Petitioner
“has not presented any facts tending to show that these
calls were the ‘real reason ‘Holmes decided to
terminate his employment.” In effect, the Court
required Petitioner to prove “Pretext Plus”. However,
the District Court decision is at odds with the Supreme
Court’s holding that “a plaintiff’s prima facie case,
combined with sufficient evidence to find that the
3

After taking a break during deposition and talking to his attorney
(CVS’s attorney), Saibu changed his testimony. Therefore, a
reasonable jury would be entitled to believe that both Saibu and
Holmes are not telling the truth, as Saibu’s testimony at first
contradicted Holmes, but he changed it after talking to CVS
attorney during break.

30
employer’s asserted justification is false may permit
the trier of fact to conclude that the employer
unlawfully discriminated [or retaliated].”Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 147
(2000). In Reeves, there was no dispute that Reeves
established a prima facie case of discrimination.
Sanderson’s rebuttal asserted that Reeves had been
terminated “due to his failure to maintain accurate
attendance records” and his “failure to discipline
absent and late employees.” Reeves “[m]ade a
substantial showing that [Sanderson Plumbing]’s
explanation was false.” Id. at 134. However, the Fifth
Circuit concluded that “there was insufficient evidence
for a jury to find that Sanderson discharged Reeves
because of his age. “Reeves v. Sanderson Plumbing
Prods., Inc., 197 F.3d 688, 693 (5th Cir. 1999).
The Supreme Court reversed the Fifth Circuit and
held that “a plaintiff’s prima facie case, combined with
sufficient evidence to find that the employer’s asserted
justification is false, may permit the trier of fact to
conclude that the employer unlawfully discriminated
[/retaliated].” Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133, 135 (2000). Thus, the Supreme
Court ruled that the Fifth Circuit “erred in proceeding
from the premise that a plaintiff must always introduce
additional, independent evidence of discrimination
[/retaliation].” Id. at 149.
The Fourth Circuit decision is also in conflict with
4th Circuit precedent that “a plaintiff may [defeat
summary judgment] through direct evidence of conduct
or statements that both reflect directly the alleged
discriminatory[/retaliatory] attitude and that bear

31
directly on the contested employment decision.” See
Rhoads v. F.D.I.C., 257 F.3d 373, 391-92 (4th Cir.
2001); In this case, the District Court ruled that,
assuming that Rhoads made out a prima facie case of
retaliation, she failed to demonstrate that the FDIC’s
proffered reason for her termination — her excessive,
unexcused absenteeism — was untrue and, thus, a pretext for discrimination. The 4th Circuit reversed the
District Court decision, stating that direct evidence of
a stated purpose to discriminate coupled with indirect
evidence such as the timing of Rhoads’s firing created
a genuine issue for trial. Petitioner’s case is much
stronger than Rhoads. Here there is no dispute that
Petitioner has made prima facie case. In addition,
unlike in Rhoads, Petitioner has not merely submitted
direct evidence of CVS’s stated purpose to retaliate
against him, but actual evidence of retaliation in the
form of jury verdict that CVS retaliated against him on
April 15, 2015 for making Title VII complaints.
Moreover, CVS terminated Petitioner days after he
made a Title VII complaint of discrimination.
Therefore, just as in Rhoads, there is a genuine issue
for trial as to the retaliation claim regarding
Petitioner’s termination.
The Fourth Circuit’s affirmance of the DISTRICT
COURT’s decision is clearly at odds with Supreme
Court and Fourth Circuit precedent, and as a result
this Court should find that the Fourth Circuit’s
affirmance of that decision was in error.

32
D. The Decision by the District Court and
the 4th Circuit that Wantou’s Alleged
Insubordination In the Face of Prior
Animus Is Dispositive of Retaliation
Creates a Circuit Split that Must Be
Resolved By The Supreme Court.
The Fourth Circuit position that Wantou could not
defeat summary judgment because he was allegedly
insubordinate on January 8, 2016 (which is
contradicted by the evidence) is at odds with other
Circuits’ decisions in very similar cases. In the case of
Kelley v. Corr. Med. Servs., Inc., the 1st Circuit
reversed a District Court’s grant of summary judgment
(on the basis that the plaintiff had failed to raise a
genuine issue of material fact as to whether the
employer’s stated reason/explanation for her
termination was a pretext for retaliatory animus) on
the retaliation claim of an employee, Katherine Kelley
(“Kelley”), who was fired for insubordination by her
former employer, Correctional Medical Services, Inc.
(“CMS”). Kelley v. Corr. Med. Servs., Inc., 707 F.3d 108
(1st. Cir. 2013). Kelley was terminated by her
supervisor, Theresa Kesteloot (“Kesteloot”) for
insubordination on October 17, 2008; and the District
Court found that although Kelley had made out a
prima facie retaliation claim, CMS had presented
sufficient evidence of a legitimate, non-discriminatory
reason for her termination, namely, Kelley’s refusal to
obey her supervisor’s instruction. Id. at 115. “The only
issues on appeal [were] whether the District Court
erred in concluding that Kelley failed to raise a genuine
dispute of material fact to pretext and retaliatory
animus.” Id. The 1st Circuit held that based on

33
Kesteloot’s prior manifest illegal animus towards
Kelley, “a reasonable factfinder could conclude that
Kelley’s refusal to obey an instruction of Kesteloot
served as a convenient pretext for eliminating an
employee who had engaged in ADA-protected conduct
one too many times.” Id. at 117. The 1st Circuit went
on to say that a reasonable factfinder could find that
Kesteloot’s termination of Kelley was a “disingenuous
overreaction to justify dismissal of an annoying
employee who asserted [her] rights under the ADA
rather than the firing of an insubordinate employee.”
Id. at 118 (internal quotations omitted). The 1st
Circuit further held that:
In granting summary judgment, the district
court focused almost exclusively on Kelley’s
insubordination. The court concluded that on
October 17, Kesteloot had made an effort to
accommodate Kelley by requiring Voorhees to
handle the physically demanding duties, thereby
rendering baseless Kelley’s resistance to
assuming responsibility for the main clinic.
Although this view of the record is reasonable, it
disregards the record evidence of Kesteloot’s
ongoing disability-based animus and the way in
which that animus might have influenced
Kesteloot’s [termination of] Kelley.
[. . . .]
While the ADA is not a license for
insubordination at the workplace, […] the
employer cannot invoke the specter of
insubordination in order to mask retaliation”. Id.
(emphasis added, internal quotations omitted).

34
The various circuits courts of appeal are replete
with cases holding that when a plaintiff has adduced
sufficient evidence as to the employer’s past retaliatory
animus, it is for the factfinder and not the court, to
decide whether insubordination (even when it actually
occurred) was the real reason for the employer’s
adverse action or just a pretext. See e.g. Miller v. Ill.
Dep’t of Transp., 643 F.3d 190, 200 (7th Cir. 2011)
(holding that based on the employer’s retaliatory
animus, a reasonable factfinder could find that the
dismissal of the employee was a disingenuous
overreaction used as a pretext to retaliate against the
employee for engaging in protected activity);
Shellenberger v. Summit Bancorp, Inc., 318 F.3d 183,
190 (3d Cir. 2003) (holding that the employee had
presented sufficient evidence that the employer had
retaliatory animus and “fired [her] in retaliation for her
protected activity rather than (or in addition to) her
insubordinate behavior”).
In the instant case, there is no question that CVS
had a retaliatory animus against Petitioner, as the jury
unanimously found that CVS’s Level III reprimand of
April 15, 2015 meted out to Petitioner was illegally
retaliatory.
IV.

The Fourth Circuit Court of Appeals Erred
when it Affirmed the United States District
Court for the District of Maryland’s
Decision Granting CVS’s Rule50 Motion on
Maryland Punitive Damages During the
Trial

The decision by the District Court granting
Defendant CVS’s motion for Judgment as a Matter of

35
Law under Federal Rule of Civil Procedure 50 was
made in error. The standard for granting a Rule 50
motion (judgment as a matter of law) is exceedingly
high.
A court “may grant judgment as a matter of law
only if, viewing the evidence in a light most favorable
to the non-moving party and drawing every legitimate
inference in the party’s favor, … the only conclusion a
reasonable jury could have reached is one in favor of
the moving party. “Saunders v. Branch Banking & Tr.
Co. of Va., 526 F.3d 142, 147 (4th Cir. 2008).
The role of the Court in any Rule 2-501 motion is
not to decide whether there is clear and convincing
evidence to submit the case to a jury. Instead, “the
court must review all the evidence in the record,
drawing all reasonable inferences in favor of the
nonmoving party, but making no credibility
determinations or weighing evidence . . . The latter
functions, along with the drawing of legitimate
inferences from the facts, are for the jury, not the
court.” Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 135 (2000) (citing Matasushita v. Elec. Industrial
Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986),
Lytle v. Household Mfg., Inc., 494 U.S. 545, 554-555
(1990), Anderson, 477 U.S. at 255.)
A District Court is not in a position “to disregard
stories that seem hard to believe,” Gray v. Spillman,
925 F.3d 90, 95 (4th Cir. 1991). Instead, the district
court is required to construe the record evidence
favorably to the nonmovant—Wantou—even if it does
not believe that the nonmovant would prevail at trial.
See Jacobs v. N.C. Admin. Office of the Courts, 780

36
F.3d 562, 568 (4th Cir. 2015). The Court’s duty is only
to consider whether there is a genuine issue for trial.
Anderson, 477 U.S. at 248.
“Thus, although the court reviews the record as a
whole, it must disregard all evidence favorable to the
moving party that the jury is not required to believe.”
Id. The Court must also “assume that the testimony in
favor of plaintiffs was credible, unless totally incredible
on its face, and ignore evidence to rebut it.” Duke v.
Uniroyal Inc., 928 F.2d 1413, 1419 (4th Cir. 1991).
When a genuine issue of material fact is identified, the
district court is “obliged to accept [the nonmovant]’s
version of events.” Harris v. Pittman, 668 F. App’x 486
(4th Cir. 2016) (per curium).
The District Court erred in granting Defendant
CVS’ motion for summary judgment despite the
existence of a genuine issue of material fact. By finding
that there was no genuine issue to be determined by
the trier of fact, the District Court made an
impermissible credibility determination as to the
retaliatory nature of Wantou’s Level III discipline.
There was certainly more than “one reasonable
conclusion as to the verdict.” Therefore, the District
Court’s grant of judgment as a matter of law was
improper.
MD Code—SG §20-1013. MD Code—SG §201013(e)(1)(ii) states that punitive damages may be
awarded by the court if: “the court finds that the
respondent has engaged in or is engaging in an
unlawful employment practice with actual malice.”
The basic criteria by which to judge a defendant on the
punitive damages issue in Maryland was stated in an

37
oft-cited 1884 case: “To entitle one to such damages
there must be an element of fraud, or malice, or evil
intent, or oppression entering into and forming part of
the wrongful act. . . .[T]o entitle the plaintiff to recover
punitive damages. . . .the jury must find that the
wrongful act was done wantonly, or willfully, or in the
spirit of oppression. It is the evil motive or
intention with which the wrongful act is
done. . .on which rests the rule of punitive
damages.” Philadelphia, Wilmington & Baltimore
Railroad Co. v. Hoeflich, 62 Md. 300, 307-309 (1884)
(Emphasis added). “We specifically hold that, in a suit
for [punitive damages]. . .it must be shown by the
plaintiff in order to recover punitive damages that the
[defendant] not only acted wrongfully but without just
cause or excuse, and with the evil motive to injure or
oppress, or at least with a reckless disregard of the
rights of the person injured.” Dennis v. Baltimore
Transit Co., 189 Md. 610, 617, 56 A.2d 813, 817 (1948).
There is no question that there was sufficient evidence
of evil motive to injure and oppress Wantou, malice,
fraud and reckless disregard for Wantou’s rights under
Title VII/§ 1981/ Maryland Code--SG §20-602 et seq.,
and therefore Wantou was entitled to jury trial as to
punitive damages under Maryland Code--SG §20-1013
et seq.; and in any event, the District Court did not
perform any review of the evidence that had been
presented to the jury, not even a cursory one prior to
granting CVS’s judgment as a matter of law. The
District judge simply stated:
So I am ruling right now that there is no clear
and convincing evidence of punitive damages. So
for purposes of that state claim, there will be --

38
there is not enough to go to the jury on clear and
convincing evidence.(2/22/19 Tr. PM 63:5-8.).
Clearly the Court substituted itself for the jury.
Moreover, the District Court used the manifestly
erroneous standard that the plaintiff had not presented
“clear and convincing evidence,” instead of the correct
standard, which was to decide whether there were
genuine issues for trial as to the Maryland State Law
issues in questions.
There is no question that there was a genuine issue
for trial on Maryland punitive damages. Upon ruling
on the post-trial motions, the District Judge himself
stated: “the jury reasonably could have believed the
Plaintiff’s evidence that he had permission (or at least
acquiescence) from his supervisor for his actions and
that the reason the disciplinary incident was later
revisited and the disciplinary action escalated was
because of Plaintiff’s well-documented discrimination
complaints.” (ECF No 205, p. 3). So clearly, the jury
could have believed that Wantou’s supervisor acted
intentionally, with malice, and with reckless disregard
to Wantou rights under Maryland law.
The Fourth Circuit’s affirmance of the District
Court’s decision granting CVS’ motion for judgment as
a matter of law was improper. Accordingly, this Court
should grant Wantou’s petition for a writ of certiorari.

39
V.

The Fourth Circuit Erred When It Upheld
the District Court’s Decision Finding that
the District Court’s Dismissal of the
Impaneled Jury and the Trial of the
Punitive Damages Issues Under a Different
Jury Did Not Infringe on His Seventh
Amendment Right to a Jury Trial

The Fourth Circuit erred in affirming the District
Court despite the fact that Wantou’s right to a trial by
jury was violated. The Fourth Circuit has previously
held that - Whenever a District Court bifurcates
between the liability issue and the issue of punitive
damages, the proper procedure is to have the jury
determine in the first phase (along with liability and
compensatory damages) “whether punitive damages
are to be awarded.” Then, during the bifurcated phase,
the parties “present evidence relevant to the factors for
finding the appropriate amount.”
See Mattison v. Dallas Carrier Corp., 947 F. 2d 95,110
(4th Cir. 1991)
By way of analogy, the Seventh Circuit Court of
Appeals has previously held that dividing a trial so
that different juries would examine the same issues
constitutes an abuse of discretion. In Matter of RhonePoulenc Rorer Inc., 51 F.3d 1293, 1302 (7th Cir. 1995)
the Court stated the “district judge must carve at the
joint” and that “the judge must not divide issues
between separate trials in such a way that the same
issue is reexamined by different juries” Id. at 1302-03.
Furthermore, the Seventh Circuit stated that “[the]
right to a jury trial in federal civil cases, conferred by

40
the Seventh Amendment, is a right to have juriable
issues determined by the first jury impaneled to hear
them (provided there are no errors warranting a new
trial), and not reexamined by another finder of fact.
“Id. at 1303. See also Castano v. Am. Tobacco Co., 84
F.3d 734, 750 (5th Cir. 1996) (“The Seventh
Amendment entitles parties to have fact issues decided
by one jury, and prohibits a second jury from
reexamining those facts and issues. Thus, [the]
Constitution allows bifurcation of issues that are so
separable that the second jury will not be called upon
to reconsider findings of fact by the first.”)
The Fourth Circuit did not follow these guidelines
when bifurcating Wantou’s trial. The issue of whether
or not CVS’ issuing of a Level III discipline to Wantou
for alleged leaving the pharmacy unattended and
violated Maryland Board of Pharmacy Rules and
Regulations was retaliatory was litigated both at the
liability trial and the punitive damages phase. See Pet
App. 46a.
The decision of the District Court to try the liability
case and punitive damages case under two separate
juries without separating the issues runs against
established precedents from the U.S. Supreme Court
and from the Fourth Circuit.
This Court has held that questions in a single suit
“can only be tried by different juries if they are so
distinct and separable from each other that a trial of
them alone may be had without injustice.” Gasoline
Products Co. v. Champlin Refining Co., 283 U.S. 494,
500, 51 S.Ct. 513, 515, 75 L.Ed. 1188 (1931). See also
Miller v. American Bonding Co., 257 U.S. 304, 308

41
(1921) (“In actions at law the general practice is to try
all the issues in a case at one time; and it is only in
exceptional instances where there are special and
persuasive reasons for departing from this practice that
distinct causes of action asserted in the same case may
be made the subjects of separate trials.”) See also Fed.
R. Civ. 42(b)”When ordering a separate trial, the court
must preserve any federal right to a jury trial.”
A few examples of CVS’s re-litigating the liability
issue of the first trial include the following: Homes relitigated whether she gave permission to Wantou to go
to his car [Trial Tr.; July 10, 2019; A.M.; Holmes:21:717], a central issue heavily litigated in the first trial
(2/25/19 Tr. PM Holmes 7:21-25; 8:1-4), (2/25/19 Tr. PM
Holmes 84:14-25; 85:1-13). Human Resource Manager
stating “I disagree with the jury prior, but we issued
the Level III because that’s what was needed for that
situation.” [Trial Tr.; July 10, 2019; A.M.;
Nguyen:138:13-14]. Human Resource Director Orien
Hunter testifying that the Level III discipline given to
Wantou on April 15, 2015 was warranted because
Wantou had allegedly violated policy and put the public
at risk [Trial Tr; July 10, 2019; PM Session;
Hunter:22:22:23; Id 19:12-15].
Loss Prevention
Manager James Gerwig stating that Wantou’s Level III
discipline was appropriate because Wantou had
violated policy “But in this instance, this was a policy
violation” [Trial Tr,; July 9; PM Session; 43:25].
“Regardless, that would still violate policies,
procedures, and laws.” [Trial Tr,; July 9; PM Session;
54:23-24].

42
The issues of whether Holmes gave permission to
Wantou to go to his car and whether not the discipline
issued to Wantou was appropriate was already decided
by the first jury, who decided that Wantou was not
disciplined for violating policy or for putting the public
at risk, but rather in retaliation for his complaint of
discrimination. As such, re-litigating these issues was
a violation of Wantou’s 7th amendment right to a jury
trial and prejudiced Wantou to the new impaneled jury.
As a result, this Court should grant Wantou’s
petition for a writ of certiorari and allow him to pursue
his Seventh Amendment claim before the Supreme
Court.
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
robertsirianni@brownstonelaw.com
(o) 407-388-1900
(f) 407-622-1511
Counsel for Petitioner
Dated: June 25, 2021.

